                                       . NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                    CLOSEOUT MEMORANDUM

                                                                                   Page 1 of1



This case was opened after our office received a referral from an NSF Program Manager. An
allegation of plagiarism was made against a PI J during an NSF panel review of proposals. One
ofthe panel members asserted that material from an NSF proposafwas copied from a
manufacturer's-website. Our analysis identified a small amount of text that appeared to be
copied without proper citation or attribution.

After contacting the PI and reviewing his
                                       .  response, we advised the PI regarding proper
                                                                                 .     citation of
copied materials and reminded him that the Grant Proposal Guide states that all authors of
proposals must be identified within the proposal.
                              J



Accordingly, this case is closed.
